No. 19-643
In the

Supreme Court of the United States
JOHN HURRY, ET AL., Petitioners,
v.
FINANCIAL INDUSTRY REGULATORY AUTHORITY, INC., ET AL., Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
PROOF OF SERVICE

I hereby certify under the penalty of perjury that all parties to this action required
to be served have been served with the attached documents on January 15, 2020 by
depositing a copy in the U.S. mail, filing the same in the Court’s electronic filing
system, and emailing a copy to the applicable email addresses, as indicated below:
Charles Harder (charder@harderllp.com)
Dilan A. Esper (desper@harderllp.com)
Harder LLP
132 S. Rodeo Dr., 4th Fl.
Beverly Hills, CA 90212
(424) 203-1600

Attorneys for Petitioners
Dated this 15th day of January, 2020.
Gregory Schneider

Counsel of Record

Squire Patton Boggs (US) LLP
1 E. Washington St., Suite 2700
Phoenix, Arizona 85004
(602) 528-4000

